                                                               1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                               PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com




                                     MANAGEMENT LETTER
                                       AUD-FM-IB-14-15

To the Board of Governors and the Inspector General of the Broadcasting Board of Governors:

Kearney & Company, P.C. (referred to as “we” hereafter), has audited the consolidated financial
statements of the Broadcasting Board of Governors (BBG) as of and for the year ended
September 30, 2013, and has issued our report thereon dated December 14, 2013. 1 In planning
and performing our audit of BBG’s consolidated financial statements, we considered BBG’s
internal control over financial reporting and BBG’s compliance with certain provisions of laws,
regulations, contracts, and grant agreements. Our auditing procedures were designed for the
purpose of expressing an opinion on the consolidated financial statements and not to provide
assurances on internal control or compliance. Accordingly, we do not express an opinion on the
effectiveness of BBG’s internal control over financial reporting or on BBG’s compliance with
certain provisions of laws, regulations, contracts, and grant agreements.

During our audit, we noted certain matters related to internal control over financial reporting that
we considered to be material weaknesses or significant deficiencies and certain matters relating
to compliance that we considered to be reportable under auditing standards generally accepted in
the United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and
OMB Bulletin No. 14-02, Audit Requirements for Federal Financial Statements. These items
are not repeated in this letter, as they are explained in detail in our report on BBG’s FY 2013
financial statements.

Our procedures were designed primarily to enable us to form an opinion on BBG’s consolidated
financial statements and therefore may not have identified all internal control weaknesses and
instances of noncompliance that may exist. Although not considered to be material weaknesses,
significant deficiencies, or reportable instances of noncompliance, we noted certain other matters
involving internal control, operations, and compliance. These findings and recommendations,
which are summarized in Appendix A, are intended to assist BBG in strengthening internal
control and improving operating efficiencies.

We appreciate the courteous and professional assistance provided by BBG personnel during our
audit. These findings and recommendations have been discussed with appropriate BBG officials.
Comments from BBG’s management on this report are presented as Appendix B.




1
 Independent Auditor’s Report on the Broadcasting Board of Governors 2013 Financial Statements (AUD-FM-IB­
14-14, Dec. 2013).


                                                    1

This letter is intended solely for the information and use of BBG management, those charged
with governance, and others within BBG and the Office of Inspector General and is not intended
to be and should not be used by anyone other than these specified parties.




Alexandria, Virginia
March 19, 2014




                                              2

                                                                                         Appendix A


                         MANAGEMENT LETTER COMMENTS
COMMENTS REPEATED FROM PRIOR YEAR

During the audit of the Broadcasting Board of Governors (BBG) FY 2012 financial statements, a
predecessor auditor identified matters that were reported in an internal control report 1 and a
management letter. 2 During the audit of the FY 2013 financial statements, Kearney & Company,
P.C. (referred to as “we” hereafter) assessed the status of the deficiencies reported by the
predecessor auditor. The severity of one issue reported in the FY 2012 internal control report
related to Foreign Service National (FSN) after-employment benefits had decreased and is
included in the management letter rather than the FY 2013 report on internal control. Three
issues from the FY 2012 management letter remained open and are updated with information
obtained during the audit of BBG’s FY 2013 financial statements.

I.      Fund Balance with Treasury

Reconciliation of Transactions Recorded in Suspense Accounts

A suspense account is a temporary account used by agencies to record transactions with
discrepancies until a determination is made on the proper disposition of the transaction. For
instance, BBG will record a credit card transaction in a suspense account until the transaction is
matched to the related obligation. The Department of the Treasury (Treasury) allows entities
with a justifiable business need to use suspense accounts as a temporary holding place for
transactions; however, the transactions should be cleared within 60 days.

We found that BBG had recorded transactions in suspense account F3875 that had not been
researched and resolved within 60 days. As of June 30, 2013, $1,036,383 in suspense account
transactions had been unresolved for more than 60 days. Of these transactions, $639,525 related
to transactions from FY 2012 or earlier.

BBG’s process to research and resolve routine amounts recorded to the suspense account in the
current year appears to be designed effectively. However, it is a manual process, and there are
limited personnel with the ability to perform this task, leading to delays in execution.
Additionally, balances from prior years require extensive research to effectively determine the
appropriate treatment. BBG officials stated that they were unable to fully reconcile and clear
older suspense account balances due to resource limitations.

Failure to resolve suspense account activity timely could affect BBG’s ability to effectively
monitor budget execution and accurately measure the full cost of its programs. Untimely
suspense account reconciliations could also result in erroneous financial statements.

1
  Independent Auditor’s Report on the Broadcasting Board of Governors 2012 and 2011 Financial Statements
(AUD-FM-IB-13-12, Nov. 2012).

2
  Management Letter Related to the Audit of the Broadcasting Board of Governors 2012 and 2011 Financial

Statements (AUD-FM-IB-13-13, Feb. 2013).

                                                      1

                                                                                 Appendix A


Recommendation:

We recommend that BBG

      •	 Devote resources, as available, to research and resolve suspense account transactions that
         are more than 60 days old.
      •	 Develop a reasonable methodology to effectively “write-off” amounts included in a
         suspense account for more than 5 years by transferring the transactions to non-suspense
         accounts.

II.      Payroll

Maintenance of Time and Attendance Documentation

BBG’s Civil Service and Foreign Service Officers are paid by Defense Finance and Accounting
Services. These payments are made based upon time and attendance (T&A) information input
by BBG officials into Defense Finance and Accounting Services’ payroll system. Each
employee prepares a timesheet and confirms that the T&A information, including leave taken, is
accurate for the current pay period. Once the timesheet is signed by the employee, the T&A
Supervisor reviews each timesheet and certifies that it is accurate. Once certified, Timekeepers
enter the data into the payroll system.

We selected a sample of 78 employees who were paid between October 1, 2012, and June 30,
2013. For each employee, we requested that BBG provide the approved timesheet to support
salary payments. In 11 of 78 (14 percent) instances, BBG was unable to provide evidence that a
T&A Supervisor had approved the employee’s timesheet.

We found that BBG did not sufficiently maintain timesheets. In addition, we found that BBG
Timekeepers did not consistently ensure that timesheets were approved by T&A Supervisors
prior to entering T&A information into the payroll system. We noted that in FY 2013 BBG
conducted refresher training for all domestic employees, T&A Supervisors, and Timekeepers.
During this training, BBG’s payroll personnel stressed the importance of T&A Supervisor
approval of time records. Nine of 11 errors identified had occurred prior to the refresher
training.

Failure to properly approve timesheets increases the risk that employees will be compensated for
hours not worked or annual or sick leave will not be properly reported.

Recommendation:

We recommend that BBG

      •	 Strengthen controls over time and attendance reporting by making timekeeping refresher
         training required annually.

                                                  2

                                                                                 Appendix A


       •	 Place increased emphasis on the role of the Timekeepers, stressing the importance of
          following up when approval documentation is not provided.
       •	 Continue to perform periodic internal reviews of timesheets to ensure timesheets are
          being prepared in accordance with policies and procedures.

III.      After-Employment Benefit Liabilities

Oversight of Foreign Service National After-Employment Benefits

Based on local employment laws and prevailing wage practices, BBG is required to provide
some FSN employees at overseas posts with after-employment benefits through a variety of
arrangements, including annuity-based defined benefit retirement plans, defined contribution
retirement plans, lump-sum retirement payments, and lump-sum separation benefits to FSNs who
voluntarily resign or otherwise leave the workplace. The FSN benefits are described in local
compensation plans that govern all FSNs at a U.S. mission and are, by law, established by the
Department of State (Department).

During FY 2013, BBG had approximately 300 FSN employees at 23 posts that offered some type
of after-employment benefits. The Department, or a third-party plan administrator, makes the
required after-employment payments to the FSN employees on behalf of BBG; however, BBG is
responsible for making contributions to the individual plans and recognizing the required
financial information on its financial statements.

We found that BBG did not have a plan to sufficiently report financial information related to the
FSN after-employment benefit plans in its annual financial statements. Specifically, we noted
omissions or shortcomings in BBG’s FY 2012 financial reporting of annuity-based defined
benefit plans, defined contribution plans, and lump sum voluntary severance and retirement
benefits. After we communicated information on this deficiency to BBG management, we
worked with the Department to have the Department provide relevant information on FSN after-
employment benefits to BBG. BBG used the data from the Department to more accurately report
FSN after-employment information in its FY 2013 financial statements.

BBG did not have a comprehensive understanding of the after-employment benefits offered to its
FSN employees or the impact of the benefits on its financial statements. We found that BBG did
not have sufficient monitoring and oversight controls relating to after-employment benefits. For
instance, BBG did not maintain a comprehensive list of FSN after-employment benefit plans by
post. In addition to the financial reporting deficiencies, BBG did not sufficiently monitor the
after-employment benefits or assess the sufficiency of the funding for these plans.

Although BBG was able to leverage information from the Department to improve its FY 2013
reporting of FSN after-employment benefits, the processes performed were informal, untimely,
and susceptible to human error. In addition, the lack of oversight related to FSN after-
employment benefits may result in funding shortfalls.


                                                  3

                                                                                Appendix A


Recommendation:

We recommend that BBG strengthen controls to ensure Foreign Service National (FSN) after-
employment benefits are effectively managed and accurately reflected in the financial
statements. Specifically, BBG should

      •	 Develop, confirm, and maintain a complete inventory of after-employment benefits by
         post.
      •	 Formalize the process used to obtain estimates and other required data from the
         Department of State related to lump sum voluntary severance and retirement plans.
      •	 Expand oversight of FSN after-employment plans to ensure that plans are adequately
         funded and monitored.

IV.      Legal Contingencies

Accounting for Contingent Liabilities

Federal agencies are responsible for recognizing liabilities for legal contingencies that are
considered to have a probable and measurable future outflow of government resources.
Contingent liabilities are reduced when an agency no longer has a probable and measurable
contingency or when payments are made related to the liability.

As of September 30, 2012, BBG had made settlement payments in the amount of $3.8 million
related to a judgment against BBG. BBG did not reduce its contingent liability balance by the
amount of the settlement payments during FY 2012. In FY 2013, BBG reduced the contingent
liability amount by approximately $2.3 million because Treasury’s Judgment Fund accepted
responsibility for this portion of the award payment. However, an additional $1.5 million
continued to be reported as a liability, even though funds had already been expended.

BBG was required to deposit funds into claimants’ Thrift Savings Plan (TSP) accounts. Because
the Judgment Fund cannot make deposits directly into TSP, TSP took funds from a BBG
account. BBG will need to obtain reimbursement from the Judgment Fund for the expended
funds. BBG’s policy was that it would not reduce the contingent liability amount until it had
requested reimbursement from the Judgment Fund and the Judgment Fund had acknowledged it
had accepted the liability.

As a result of BBG’s processing of contingent liabilities, this line item was overstated in BBG’s
financial statements. In addition, the fund from which claims had been paid had a negative
balance, indicating a potential Antideficiency Act violation.




                                                4

                                                                                  Appendix A


Recommendation:

We recommend that BBG

     •	 Revise the procedures for recording transactions related to contingent liabilities to reduce
        the liability once payments are made.
     •	 Take appropriate corrective action on any potential violation of the Antideficiency Act.

NEWLY IDENTIFIED COMMENTS

During the audit of BBG’s FY 2013 financial statements, some additional matters came to our
attention that had not been previously reported.

V.      Financial Reporting

Presentation of the Statement of Net Cost

One of the statements that an agency is required to prepare annually is the statement of net cost
(SNC). The main purpose of the SNC is to provide an understanding of the net costs of each
organization and each program that the government supports. Another important purpose for the
statement is to provide gross and net cost information that can be related to the amounts of
outputs and outcomes for the programs. Therefore, the SNC should present amounts paid, the
consumption of other assets, and the incurrence of liabilities as a result of rending services or
carrying out other operating activities.

BBG has one primary strategic goal that is accomplished through four principal performance
goals. We found that BBG did not present its SNC by the performance goals described in its
Strategic Plan, as required. Instead, BBG presented its SNC as an allocation of expenses and
revenues to its broadcasting entities.

BBG did not have a control in place to ensure that the financial information and disclosures in its
financial statements were in compliance with the requirements of OMB Circular No. A-136,
Financial Reporting Requirements. Further, BBG did not have a cost accounting methodology
in place to track costs and revenues by principal performance goals. In addition, BBG did not
obtain sufficient information from grantees to determine the amount of funding used by the
grantees in support of each BBG performance goal.

Because BBG did not present the SNC by the major programs related to its goals, BBG was not
in compliance with the requirements of OMB Circular No. A-136. Without a break-out of net
cost by major goal, users of BBG’s financial statements will be unable to obtain the necessary
information to analyze and interpret the total cost of each of BBG’s major programs against the
output of each program. This information is essential for determining the cost effectiveness of
its programs.


                                                  5

                                                                                 Appendix A


Recommendation:

We recommend that BBG

   •	 Revise the presentation of its Statement of Net Cost to show the net cost of operations by
      the major programs related to its major goals.
   •	 Design and implement an internal control, such as an Office of Management and Budget
      Circular No. A-136 checklist, to verify that its financial statements comply with all
      presentation requirements.
   •	 Implement a cost accounting methodology to track and monitor costs and revenues by
      major program.
   •	 Develop a process to obtain detailed transactional information from grantees, or a process
      to allocate grantee costs across major programs related to BBG’s performance goals.

Preparation of the Statement of Budgetary Resources

The statement of budgetary resources (SBR) is a principal financial statement providing
information about how budgetary resources are made available to BBG and the status of the
budgetary resources at the end of the reporting period. The SBR is the only financial statement
predominantly derived from an entity’s budgetary general ledger in accordance with budgetary
accounting rules. Information on the SBR should reconcile to budget execution information
reported to the Treasury on Standard Forms 133, Report on Budget Execution and Budgetary
Resources, and with information reported in the Budget of the United States Government to
ensure the integrity of the numbers presented. BBG uses a Microsoft Excel workbook to
crosswalk its budgetary general ledger balances to the individual lines of the SBR.

During the financial reporting process, we obtained the draft SBR from BBG and reperformed
the compilation of the line items based on Treasury guidance. We found inaccurate balances in
the draft FY 2013 SBR.

BBG’s SBR Excel workbook included formula errors that were created as a result of budgetary
adjustments made late in the financial reporting process. Specifically, BBG made an adjustment
that caused certain formulas to extract amounts from incorrect accounts. BBG performed a high-
level review of information included in the financial statements; however, the review did not
identify the errors included in the draft version of SBR that we reviewed.

The manual process to prepare the SBR increases the risk of errors in BBG’s financial
statements. In addition, insufficient quality control procedures may lead to errors in financial
statements going unnoticed by BBG.




                                                 6

                                                                                Appendix A


Recommendation:

We recommend that BBG

      •	 Develop and implement quality control procedures to ensure formulas included in the
         statement of budgetary resources workbook are correct, especially after adjustments are
         made.
      •	 Develop and implement a process to review financial statements for compliance with
         Department of the Treasury crosswalks.

VI.      Compliance with Laws and Regulations

Requirement for Financial Disclosure Reports

Because senior government executives are vested with the public trust and hold positions with a
high degree of decision-making authority, regulations exist to ensure that these individuals are
objective and free of conflicts of interest. One requirement intended to ensure that government
executives are free from conflicts is the submission of Financial Disclosure Reports.

We found that two of five BBG Board Members either had not filed a complete Financial
Disclosure Report within mandated timeframes or had not provided additional requested
information in a timely manner. One Board Member had multiple incomplete or missing
Financial Disclosure Forms dating back to 2011.

BBG’s Office of General Counsel (OGC) reviews Financial Disclosure Reports to verify that no
conflicts of interest are noted and the forms are complete. If someone does not submit a form or
if information is missing, OGC will contact the person to request additional information or
clarification. We found that OGC maintained records of its reviews of Board Members’
Financial Disclosure Reports and requests made to Board Members for additional information or
clarification of information. OGC had also contacted the Office of Government Ethics to obtain
additional guidance on actions to take when officials do not submit complete Financial
Disclosure Reports.

Although OGC had documented its efforts to obtain complete and accurate Financial Disclosure
Reports, it did not have a process in place to notify high-level BBG officials about missing or
incomplete Financial Disclosure Reports so that those officials could assist in obtaining the
required information. In addition, OGC did not maintain documentation to support conclusions
on whether the missing or incomplete submissions were subject to late filing fees and were
required to be reported to the Attorney General.

Improper filing of the Financial Disclosure Reports may lead to undisclosed and unresolved
conflicts of interest, real or perceived, between a Board Member’s official duties and private
financial interests and relationships. Untimely and improper submissions may also leave the
agency noncompliant with Federal regulations.

                                                 7

                                                                                    Appendix A


Recommendation:

We recommend that BBG

   •	 Take appropriate action to ensure that the two delinquent Board Members file complete
      Financial Disclosure Forms.
   •	 Develop a process for the Office of General Counsel to regularly report to the Chairman
      of the Board of Governors and to the Director of the International Broadcasting Bureau
      the names of BBG officials that have not provided a complete and approved Financial
      Disclosure Report.
   •	 Ensure that conclusions reached regarding late filing fees and Attorney General

      notification are appropriate and based on supporting documentation. 


STATUS OF PRIOR YEAR MANAGEMENT LETTER FINDINGS

The current status of findings reported in the management letter related to the audit of BBG’s FY
2012 financial statements is summarized in Table 1.

       Table 1. Current Status of Prior Year Management Letter Findings
            FY 2012 Management Letter Findings                    FY 2013 Status
        Personal Services Contractors Employment Taxes         Report on Compliance

        American Payroll – Time and Attendance                   Management Letter

        Information Technology Security                       Report on Internal Control
        Reconciliation of Transactions Recorded in Suspense
                                                                 Management Letter
        Accounts
        Financial Reporting Process                                    Closed

        Contingent Liabilities                                   Management Letter

        Statement of Net Cost – Indirect Cost Allocation               Closed




                                                      8

KEARNEY&
COMPANY                                                                                                 Appendix B




       Brggdcaning Bogrd ofGovemgrs
       INTERNATIONAL BROADCASTING BUREAU




                                                          February 21, 2014


           Mr. Norman P. Brown
           Assistant Inspector General for Audits
           Office of Inspector General
           U.S. Department of State


           Dear Mr. Brown:

           This is in response to your request for comments on the draft management letter related to the
           audit of the Broadcasting Board ofGove.mors' (BBG) 2013 financial statements. We have
           reviewed the observations and conclusions of the independent certified public accounting finn,
           Kearney & Company, P.C. (referred to as "Kearney'' hereafter), and provide responses to each of
           the issues in the enclosure.

           As noted in our correspondence of December 16, 2013 related to the financial audit, our goal is
           to support a financial platform that furthers the agency' s complex global broadcasting operations
           and mission. The BBG is dedicated to addressing the findings noted and will continue its efforts
           to identify scarce agency resources to improve our financial management and internal controls.

           Thank you for the opportunity to respond. If you have any questions, please feel free to contact
           Ms. Kelu Chao, Director, IBB Office of Performance Review, at (202) 203-[Redacted] (b) (6)

                                                           Sincerely,



                                                         ~ Leslie Hyland
                                                           Chieffinancial Officer

           Enclosure: As Stated




                                                              1
KEARNEY&
COMPANY                                                                                               Appendix B




       Enclosure

                                    Broadcasting Board of Governors Response
                                      Audit of FY 2013 Financial Statements


                           BBG Responses to the Audit Observations and Recommendations


       I.        Rt:(loociliation of Transactions Recorded in Suspense Accounts

                 Audit Recommendation: Kearney recommends that BBG
                 • Devote resources, as available, to research and resolve suspense account transactions
                   that are more than 60 days old.
                 • Develop a reasonable methodology to effectively "write-off' amounts included in a
                   suspense account for more than 5 years by transferring the transactions to non-suspense
                   accounts.

                 BBG Response: The BBG concurs with this recommendation. During the past year, OCFO
                 has focused its resources on developing and implementing a process to timely reconcile
                 current year transactions and created a corrective action plan to resolve activities in prior
                 years. As recommended by Kearney, OCFO will devote resources as available to reconcile
                 and resolve differences from prior years, with a goal ofeffectively writing-off amounts
                 older than five years

           II.   Maintenance of Time and Attendance Documentation

                 Audit Recommendation: Kearney recommends that BBG
                 • Strengthen controls over time and attendance reporting by making timekeeping
                   refresher training required annually.
                 • Place increased emphasis on the role of the Timekeepers, stressing the importance of
                   following up when approval documentation is not provided.
                 • Continue to perform periodic internal reviews of timesheets to ensure timesheets are
                   being prepared in accordance with policies and procedures.

                 BBG Response: We c:Oncur with this recommendation. The OCFO will work to convert
                 the refresher training for timekeepers and supervisors to on-line training, and request that
                 the on-line course be required training for all timekeepers and supervisors to be completed
                 annually. In addition, the agency will look at instituting periodic internal reviews to
                 validate progress toward adherence to these requirements. Finally, the agency will explore
                 ways to automate time and attendance, which will also strengthen controls over approvals
                 and record keeping.




                                                            2
KEARNEY&
COMPANY                                                                                         Appendix B




       m.   Ovenigbt of ForeigD Service National Alte~Employmeat Benefits

            Audit Recommendation: Kearney recommends that BBG strengthen controls to ensure
            Foreign Service National (FSN) after-employment benefits are effectively managed and
            accurately reflected in the financial statements. Specifically, BBG should
            • Develop, confirm, and maintain a complete inventory of after-employment benefits by
              post.
            • Fonnalize the process used to obtain estimates and other required data from the
              Department of State related to lump sum voluntary severance and retirement plans.
            • Expand oversight ofFSN after-employment plans to ensure that plans are adequately
              funded and monitored.

            BBQ Response: We concur with this recommendation. The OCFO has already been in
            contact with the Department of State to discuss the process to obtain estimates and other
            required data related to lump sum voluntary severance and retirement plans. In addition,
            given the Department's long experience in administering these programs, OCFO will seek
            to learn "best practices" from the Department in maintaining appropriate data and
            performing oversight as we seek to develop and implement an adequate process for
            estimating the liability ofFSN after-employment benefits. As resources permit, OCFO will
            work with the Department and its actuaries to obtain the relevant data (methods,
            assumptions, values and amounts) for the different after-employment benefits plans and
            report on the BBO's financial statements.

       IV. Aceouatiag for Coati.Dgeat Liabilities

            Audit Recommendation: Kearney recommends that BBO
            • Revise the procedures for recording transactions related to contingent liabilities to
               reduce the liabiHty once payments are made.
            • Take appropriate corrective action on any potential violation of the Antideficiency Act.

            BBG Resoonse: The recommendations relate to a particular arrangement for a unique legal
            case and for which the payment of those claims followed the law applicable at that time.
            Given the unique nature and timing ofactions from the parties involved (i.e., BBO, TSP,
            Judgment Fund) in the case, the BBQ developed the current posting sequencing to better
            reflect the U.S. Standard General Ledge.r model of reducing contingent liabilities and
            recognizing imputed benefits concurrently for a litigation case that is ultimately paid from
            the Judgment Fund. Accordingly, the BBQ does not expect to revise its procedures for
            reporting this particular contingent liability.

            The BBQ will work to submit and follow-up on the requested reimbursement from the
            Judgment Fund to ensure timely recognition and recording of transactions by all parties.
            Thls action will alleviate the timing differences surrounding various events: payments to
            claimants, reducing contingent liabilities, recognizing imputed benefits, and recording
            Judgment Fund reimbursement to replenish negative cash balance in BBQ's deposit fund
            X6276 - Other Federal Payroll Withholding, Allotments.




                                                      3
KEARNEY&
COMPANY                                                                                             Appendix B




           V.   A - Presentation of the Statement of Net Cost

                Audit Recommendation: Kearney recommends that BBO
                •   Revise the presentation of its Statement of Net Cost to show the net cost of operations
                    by the major programs related to its major goals.
                •   Design and implement an internal control, such as an Office of Management and
                    Budget Circular No. A-136 checklist, to verify that its financial statements comply with
                    all presentation requirements.
                •   Implement a cost accounting methodology to track and monitor costs and revenues by
                    major program.
                •   Develop a process to obtain detailed transactional information from grantees, or a
                    process to allocate grantee costs across major programs related to BBO's performance
                    goals.

                BBO Resoonse: We concur with this recommendation. In collaboration with all entities
                and grantees, the BBO will review and update its strategic plan as necessary for the Board
                of Governors' approval.

                Based on the approved strategic direction, the OCFO's will work with key stakeholders to
                restructure the current coding structure that would allow for the mapping of costs and
                revenue to major programs and goals. We will keep 010 informed as we work toward full
                implementation of the recommendations and compliance with the A-136 presentation
                requirements.

           V.   B - Preparation of the Statement of Budgetary Resources

                Audit Recommendation: Kearney recommends that BBO
                • Develop and implement quality control procedures to ensure formulas included in the
                  statement of budgetary resources workbook are correct, especially after adjustments
                  are made.
                • Develop and implement a process to review f1nancial statements for compliance with
                  Department of the Treasury crosswalks.

                BBG Resoonse: We concur with this recommendation. Vacancies in key positions and
                non-integration of various workbooks hampered the OCFO ability to perform effective
                quality control reviews of the financial statements. As we work to complete the full
                implementation of financial statements production directly from Momentum, the OCFO
                will seek to automate the linkage and integration of separate workbooks used in preparing
                the statement of budgetary resources, the complete set of financial statements and notes,
                and the "print ready" version for BBG Performance and Accountability Report publication.
                These measures which include the necessary edit checks will alleviate some of the typical
                errors encountered.




                                                           4
KEARNEY&
COMPANY                                                                                         Appendix B




       VI. Requirement for Financial Disdosure Reports

           Audit Recommendation: Kearney recommends that BBG
           • Take appropriate action to ensure that the two delinquent Board members file complete
             Financial Disclosure Forms.
           • Develop a process for the Office ofGeneral CoWlSel to regularly report to the Chairman
             of the Board of Governors and to the Director of the International Broadcasting Bureau
             the names of BBG officials that have not provided a complete and approved Financial
             Disclosure Report.
           • Ensure that conclusions reached regarding late filing fees and Attorney General
             notification are appropriate and based on supporting documentation.

           BBG Response: The agency notes that the two B.oard members who did not file their
           Financial Disclosure Reports within the mandated timeframes did file them within three
           days of the passage of their filing deadlines. Therefore, their submissions were within the
           30-day grace period established by the Office of Government Ethics and no delinquency
           notification letters or mandatory late fees were required.

           One member's form was complete when filed and was never "delinquent" as it was
           properly received within the 30-day grace period.

           Regarding the sole member's delinquent forms, the Office of the General CoWlSel (OOC)
           has since received this member's 2011 form and has actively engaged the BBG Chairman
           to resolve outstanding issues with the member's remaining forms.

           The agency concurs that the proper and timely submission ofaccurate and complete
           Financial Disclosure Reports is of critical importance to ensuring compliance with Federal
           ethics rules and to maintaining a strong culture of ethical behavior within the agency.
           Accordingly, OGC is already in the process of drafting proposed written procedures for
           providing notification to the Board in the case of financial disclosure non-compliance by a
           Governor, as recommended by Kearney.




                                                      5
